CERTIFICATE OF SERVICE
NO. 20-987
Spielbauer Law Office
Petitioner,
v.
Midland Funding, LLC, et al.
Respondents.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
SPIELBAUER LAW OFFICE REPLY BRIEF OF PETITIONER, by mailing three (3) true and correct copies of
the same by Fedex 2-Day, prepaid for delivery to the following address.
Leah Suzanne Strickland
Solomon Ward Seidenwurm & Smith LLP
401 B Street, Ste. 1200
San Diego, CA 92101
(619) 238-4816
lstrickland@swsslaw.com
Counsel for Midland Funding, LLC, et al.

Lucas DeDeus

March 9, 2021
SCP Tracking: John Spielbauer-1839 Ygnacio Valley Road-Cover Tan

